45076                    Federal Register / Vol. 63, No. 163 / Monday, August 24, 1998 / Notices

  Written comments and                           DEPARTMENT OF HEALTH AND                        ACTION:   Notice.
recommendations concerning the                   HUMAN SERVICES
proposed information collection should                                                           SUMMARY:    This Federal Register notice
                                                 Health Resources and Services                   sets forth the OIG’s recently-issued
be sent within 30 days of this notice to:
                                                 Administration                                  Compliance Program Guidance for
Laura Oliven, Human Resources and
                                                                                                 Clinical Laboratories. The OIG had
Housing Branch, Office of Management                                                             previously developed and published a
                                                 Advisory Council; Notice of Meeting
and Budget, New Executive Office                                                                 model compliance plan for the clinical
Building, Room 10235, Washington,                  In accordance with section 10(a) (2) of
                                                                                                 laboratory industry on March 3, 1997.
D.C. 20503.                                      the Federal Advisory Committee Act
                                                                                                 This Compliance Program Guidance for
                                                 (Pub. L. 92–463), announcement is
  Dated: August 17, 1998.                                                                        Clinical Laboratories is intended to be
                                                 made of the following National
Jane Harrison,                                                                                   more consistent with compliance
                                                 Advisory body scheduled to meet
Director, Division of Policy Review and
                                                                                                 program guidances issued by the OIG
                                                 during the month of September 1998.
Coordination.                                                                                    with respect to the hospital industry
                                                    Name: National Advisory Committee on         and to home health agencies, and serves
[FR Doc. 98–22575 Filed 8–21–98; 8:45 am]        Rural Health.                                   to clarify various aspects of the original
BILLING CODE 4160–15–P                              Date and Time: September 13, 1998; 5:00
                                                                                                 model plan. As with previously-issued
                                                 p.m.–6:30 p.m.; September 14–15, 1998; 8:30
                                                 a.m.–5:00 p.m.; September 16, 1998; 8:30        compliance program guidances, we
                                                 p.m.–11:30 a.m.                                 believe that the development of this
DEPARTMENT OF HEALTH AND
                                                    Place: Holiday Inn, Georgetown, 2101         guidance for clinical laboratories will
HUMAN SERVICES                                   Wisconsin Avenue, Washington, DC 20007,         continue as a positive step towards
                                                 Phone: (202) 338–4600, FAX: (202) 333–          promoting a higher level of ethical and
Health Resources and Services                    6113.                                           lawful conduct throughout the entire
Administration                                      The meeting is open to the public.           health care community.
                                                    Agenda: A special session will be
Advisory Council; Notice of Meeting              conducted on Sunday, September 13, for          FOR FURTHER INFORMATION CONTACT:
                                                 orientation of new members who were just        Christine Saxonis, Office of Counsel to
  In accordance with section 10(a)(2) of         appointed. Monday will include a panel          the Inspector General, (202) 619–2078.
the Federal Advisory Committee Act               discussion of ‘‘Rural Researchers’ Access to    SUPPLEMENTARY INFORMATION: As part of
                                                 National Health Survey Data,’’ a presentation   a major initiative to engage the private
(Pub. L. 92–463), announcement is                and discussion of the new guidelines for
made of the following National                                                                   health care community in combating
                                                 designating HPSAs, and a report on ‘‘Critical
Advisory body scheduled to meet                  Access Hospitals.’’ Tuesday will include        fraud and abuse, the OIG developed and
during the month of September 1998.              legislative, telehealth, and regulatory         published in the Federal Register a
                                                 updates. A presentation and discussion on       model compliance plan for the clinical
   Name: National Advisory Council on the        the ‘‘National Bipartisan Commission on the     laboratories (62 FR 9435; March 3,
National Health Service Corps (NHSC).            Future of Medicare’’ will be followed by a      1997). The compliance plan was
   Date and Time: September 9, 1998; 6:00        discussion of Department interests and          intended to provide clear guidance to
p.m.–9:00 p.m.; September 10–12, 1998; 9:00      priorities for FY 1999. Agenda items are        that aspect of the clinical laboratory
a.m.–5:00 p.m.; September 13, 1998; 8:00         subject to change as priorities dictate.
                                                                                                 industry that was interested in reducing
a.m.–11:00 a.m.                                     Anyone requiring information regarding
                                                 the subject Committee should contact Ms.        fraud and abuse within their
   Place: Sheraton National Hotel, 900 South
                                                 Arlene A. Granderson, Office, or Rural Health   organizations. Since that issuance, the
Orme Street, Arlington, VA 22204, (703) 521–
                                                 Policy, Health Resources and Services           OIG has developed and issued specific
1900.
                                                 Administration, Room 9–05, Parklawn             compliance program guidance for the
   The meeting is open to the public.
                                                 Building, Rockville, Maryland 20857;            hospital industry and for home health
   Agenda: Items will include, but not be        telephone (301) 443–0835, FAX (301) 443–
limited to: In preparation for the year 2000
                                                                                                 agencies.
                                                 2803. Persons interested in attending any          This compliance program guidance is
reauthorization the National Advisory            portion of the meeting or having questions      intended to refine and build on the
Council has developed a draft position paper,    regarding the meeting should contact Ms.
‘‘The National Health Service Corps for the      Arlene Granderson or Ms. Lilly Smetana,
                                                                                                 original model guidance plan for
21st Century.’’ Reactions, suggestions and       Office of Rural Health Policy, Health           clinical laboratories. In developing an
criticisms to this paper will be heard from      Resources and Services Administration,          effective compliance program, the OIG
public and private partners and other            telephone (301) 443–0835.                       has identified 7 fundamental elements.
interested organizations on September 10–12.        Dated: August 17, 1998.                      They are:
Copies of the draft paper will be available at   Jane M. Harrison,                                  • Implementing written policies,
the meeting. Other agenda items include
                                                                                                 procedures and standards of conduct;
                                                 Director, Division of Policy Review and
                                                 Coordination.
                                                                                                    • Designing a compliance officer and
updates on the NHSC program.
   For further information, call Ms. Eve
                                                                                                 compliance committee;
                                                 [FR Doc. 98–22576 Filed 8–21–98; 8:45 am]          • Conducting effective training and
Morrow at (301) 594–4144.                        BILLING CODE 4160–15–P                          education;
   Agenda items are subject to change as
                                                                                                    • Developing effective lines of
priorities dictate.
                                                                                                 communication;
   Dated: August 17, 1998.                       DEPARTMENT OF HEALTH AND                           • Enforcing standards through well-
Jane M. Harrison,                                HUMAN SERVICES                                  publicized disciplinary guidelines;
Director, Division of Policy Review and                                                             • Conducting internal monitoring and
                                                 Office of Inspector General                     auditing; and
Coordination.
[FR Doc. 98–22574 Filed 8–21–98; 8:45 am]        Publication of OIG Compliance                      • Responding promptly to detected
                                                 Program Guidance for Clinical                   offenses and developing corrective
BILLING CODE 4160–15–P
                                                 Laboratories                                    action.
                                                                                                    The development of this new
                                                 AGENCY: Office of Inspector General             Compliance Program Guidance for
                                                 (OIG), HHS.                                     Clinical Laboratories has been enhanced
                        Federal Register / Vol. 63, No. 163 / Monday, August 24, 1998 / Notices                                               45077

based upon changes in Health Care             Federal and State law, and the program               as an internal control in the
Financing Administration (HCFA)               requirements of Federal, State, and                  reimbursement and payment areas,
policy, private industry’s comments on        private health plans.1 The adoption and              where claims and billing operations are
the original model plan and additional        implementation of voluntary                          often the source of fraud and abuse and,
comments submitted by HCFA and the            compliance programs significantly                    therefore, historically have been the
Department of Justice.                        advance the prevention of fraud, abuse,              focus of Government regulation,
   While the key components of the            and waste in the clinical laboratory                 scrutiny and sanctions.
original plan are still included, this        industry while at the same time further                 It is incumbent upon a clinical
Compliance Program Guidance sets              the fundamental mission of all health                laboratory’s corporate officers and
forth a number of clarifying elements.        care providers, which is to provide                  managers to provide ethical leadership
Specifically, the compliance guidance:        quality services and care to patients.               to the organization and to assure that
   • Focuses on the fact that while              Within this document, the OIG                     adequate systems are in place to
physicians can order any tests they           intends to provide first, its general                facilitate ethical and legal conduct.
believe are appropriate, Medicare will        views on the value and fundamental                   Indeed, many clinical laboratories and
only pay for those tests which are            principles of clinical laboratory                    clinical laboratory organizations have
covered, reasonable and necessary;            compliance programs, and second,                     adopted mission statements articulating
   • Recognizes that individuals other        specific elements that each clinical                 their commitment to high ethical
than physicians may be authorized to          laboratory should consider when                      standards. A formal compliance
order tests in some States;                   developing and implementing an                       program, as an additional element in
   • Recognizes additional claim              effective compliance program. While                  this process, offers a clinical laboratory
information, such as requesting the           this document presents basic procedural              a further concrete method that may
diagnosis information contained in the        and structural guidance for designing a              improve quality of services and reduce
medical record, can be obtained from an       compliance program, it is not in itself a            waste. Compliance programs also
authorized person rather than directly        compliance program. Rather, it is a set              provide a central coordinating
from the physician;                           of guidelines for consideration by a                 mechanism for furnishing and
   • Notes that physicians are required       clinical laboratory interested in                    disseminating information and guidance
to submit diagnostic information to the       implementing a compliance program.                   on applicable statutes, regulations and
laboratory when ordering many—                The recommendations and guidelines                   other requirements of Federal, State and
although not all—laboratory tests;            provided in this document must be                    private health plans.
   • Emphasizes the need for the tests        considered depending upon their                         Adopting and implementing an
performed in accordance with standing         applicability to each particular clinical            effective compliance program requires a
orders to be reasonable and necessary;        laboratory.                                          substantial commitment of time, energy
and                                              Fundamentally, compliance efforts
                                                                                                   and resources by senior management
   • Clarifies laboratories should not        are designed to establish a culture
                                                                                                   and the clinical laboratory’s governing
charge physicians a price below fair          within a clinical laboratory that
                                                                                                   body.2 Programs hastily constructed and
market value for non-federal health           promotes prevention, detection and
                                                                                                   implemented without appropriate
program tests in order to include their       resolution of instances of conduct that
                                                                                                   ongoing monitoring will likely be
Federal health care business.                 do not conform to Federal and State
                                                                                                   ineffective. While it may require
   In addition, while the original model      law, and Federal, State and private
                                                                                                   significant additional resources or
laboratory compliance plan focused on         payor health care program requirements,
                                                                                                   reallocation of existing resources to
the billing of automated multichannel         as well as the clinical laboratory’s
                                                                                                   implement an effective compliance
chemistry tests, the American Medical         ethical and business policies. In
                                                                                                   program, the OIG believes that the long
Association has since deleted these           practice, the compliance program
                                                                                                   term benefits of implementing the
codes from the 1998 CPT coding                should effectively articulate and
                                                                                                   program outweigh the costs.
handbook, and HCFA no longer                  demonstrate the organization’s
recognizes these as billable or               commitment to the compliance process.                A. Benefits of a Compliance Program
reimbursable codes. As a result,              The existence of benchmarks that
                                                                                                      In addition to fulfilling its legal duty
physicians now must individually order        demonstrate implementation and
                                                                                                   to ensure that it is not submitting false
tests that once compromised a                 achievements are essential to any
                                                                                                   or incorrect claims to Government and
chemistry profile. This guidance              effective compliance program.
                                                 Eventually, a compliance program                  private payors, a clinical laboratory may
specifically reflects this policy change.
                                              should become part of the fabric of                  gain numerous additional benefits by
   A reprint of the OIG’s Compliance
                                              routine clinical laboratory operations.              implementing an effective compliance
Program Guidance for Clinical
                                                 Specifically, compliance programs                 program. Such programs make good
Laboratories follows.
                                              guide a clinical laboratory’s governing              business sense in that they help a
OIG Compliance Program Guidance for           body (e.g., Board of Directors), Chief               clinical laboratory fulfill its
Clinical Laboratories                         Executive Officer (CEO), managers,                   fundamental mission of providing
                                              technicians, billing personnel, and other            quality services as well as assisting
Introduction
                                              employees in the efficient management                clinical laboratories in identifying
  The Office of Inspector General (OIG)       and operation of a clinical laboratory.              weaknesses in internal systems and
of the Department of Health and Human         These employees are especially critical              management. Other important potential
Services (HHS) continues in its efforts to                                                         benefits include the ability to:
promote voluntarily developed and                1 This guidance is a republication of the model
implemented compliance programs for           clinical laboratory compliance plan issued by the      2 Indeed, recent case law suggests that the failure

the health care industry. The following       OIG on February 27, 1997. This guidance has been     of a corporate Director to attempt in good faith to
compliance program guidance is                amended to reflect HCFA policy changes and to be     institute a compliance program in certain situations
                                              consistent with the OIG’s Compliance Program         may be a breach of a Director’s fiduciary obligation.
intended to assist clinical laboratories in   Guidance for Hospitals. See 63 FR 8987 (February     See, e.g., In re Caremark International Inc.
developing effective internal controls        23, 1998) and the OIG’s web site at http://          Derivative Litigation, 698 A.2d 959 (Ct. Chanc. Del.
that promote adherence to applicable          www.dhhs.gov/progorg/oig.                            1996).
45078                         Federal Register / Vol. 63, No. 163 / Monday, August 24, 1998 / Notices

   • Concretely demonstrate to                           and small clinical laboratories.                       used by clinical laboratories, whether an
employees and the community at large                     However, elements of this guidance can                 independent national laboratory, a
the clinical laboratory’s strong                         be used by all clinical laboratories,                  hospital laboratory, or a small, regional
commitment to honest and responsible                     regardless of size, location or corporate              laboratory. Moreover, the elements can
corporate conduct;                                       structure, to establish an effective                   be incorporated into the managerial
   • Provide a more accurate view of                     compliance program. We recognize that                  structure of the clinical laboratory. As
employee behavior relating to fraud and                  some clinical laboratories may not be                  we stated in our compliance program
abuse;                                                   able to adopt certain elements to the                  guidance for hospitals, these suggested
   • Identify and prevent criminal and                   same comprehensive degree that others                  guidelines can be tailored to fit the
unethical conduct;                                       with more extensive resources may                      needs and financial realities of a
   • Improve the quality, efficiency and                 achieve. This guidance represents the                  particular laboratory. The OIG is
consistency of services;                                 OIG’s suggestions on how a clinical                    cognizant that with regard to
   • Create a centralized source for                     laboratory can best establish internal                 compliance programs, one model is not
distributing information on health care                  controls and monitoring to correct and                 suitable to every clinical laboratory.
statutes, regulations and other program                  prevent fraudulent activities. By no                   Nonetheless, the OIG believes that every
directives related to fraud and abuse                    means should the contents of this                      clinical laboratory, regardless of size or
and related issues;                                      guidance be viewed as an exclusive                     structure, can benefit from the
   • Develop a methodology that                          discussion of the advisable elements of                principles espoused in this guidance.
encourages employees to report                           a compliance program.                                     The OIG believes that every effective
potential problems;                                         In drafting this guidance, we took into
   • Develop procedures that allow the                                                                          compliance program must begin with a
                                                         consideration the Model Compliance                     formal commitment by the clinical
prompt, thorough investigation of                        Plan for Clinical Laboratories issued by
alleged misconduct by corporate                                                                                 laboratory’s governing body to include
                                                         the OIG in February 1997, the clinical                 all of the applicable elements listed
officers, managers and other employees;                  laboratory industry’s comments on that
   • Initiate immediate, appropriate, and                                                                       below. These elements are based on the
                                                         plan, changes in HCFA policy and the                   seven steps of the Federal Sentencing
decisive corrective action; and                          OIG’s Compliance Program Guidance for
   • Through early detection and                                                                                Guidelines.6 We recognize that full
                                                         Hospitals.                                             implementation of all elements may not
reporting, minimize the loss to the                         As appropriate, this guidance may be
Government from false claims, and                                                                               be immediately feasible for all clinical
                                                         further modified and expanded as more
thereby reduce the clinical laboratory’s                                                                        laboratories. However, as a first step, a
                                                         information and knowledge is obtained
exposure to civil damages and penalties,                                                                        good faith and meaningful commitment
                                                         by the OIG, and as changes in the rules,
criminal sanctions, and administrative                                                                          on the part of the clinical laboratory will
                                                         policies and procedures of the Federal,
remedies, such as program exclusion. 3                   State and private health plans occur. We               substantially contribute to a program’s
   Overall, the OIG believes that an                     recognize that clinical laboratories are               successful implementation.
effective compliance program is a sound                  already accountable for complying with                    At a minimum, comprehensive
investment on the part of a clinical                     an extensive set of statutory and other                compliance programs should include
laboratory.                                              legal requirements, far more specific                  the following 7 elements:
   The OIG recognizes that the                           and complex than what we have                             (1) The development and distribution
implementation of a compliance                           referenced in this document. We also                   of written standards of conduct, as well
program may not entirely eliminate                       recognize that the development and                     as written policies and procedures that
fraud, abuse and waste from the clinical                 implementation of compliance programs                  promote the clinical laboratory’s
laboratory system. However, a sincere                    in clinical laboratories often raise                   commitment to compliance (e.g., by
effort by clinical laboratories to comply                sensitive and complex legal and                        including adherence to compliance as
with applicable Federal and State                        managerial issues.4 However, the OIG                   an element in evaluating managers and
standards, as well as the requirements of                wishes to offer what it believes is                    employees) and that address specific
private health care programs, through                    critical guidance for providers who are                areas of potential fraud, such as
the establishment of an effective                        sincerely attempting to comply with the                marketing schemes, CPT/HCPCs coding
compliance program, significantly                        relevant health care statutes, regulations             issues, improper ICD–9 coding, and
reduces the risk of unlawful or improper                 and other requirements of Federal, State               improper claims submission;
conduct.                                                 and private health plans.                                 (2) The designation of a chief
B. Application of Compliance Program                                                                            compliance officer and other
                                                         Compliance Program Elements
Guidance                                                                                                        appropriate bodies (e.g., a corporate
                                                           The elements proposed by these                       compliance committee) charged with
   There is no single ‘‘best’’ clinical                  guidelines are similar to those of the                 the responsibility of operating and
laboratory compliance program, given                     compliance program guidance for                        monitoring the compliance program,
the diversity of laboratories within the                 hospitals that was published by the OIG                and who report directly to the CEO and
industry. The OIG understands the                        in February 1998 and of our corporate                  the governing body;
variances and complexities within the                    integrity agreements.5 The elements                       (3) The development and
clinical laboratory industry and is                      represent a guide—a process that can be                implementation of regular, effective
sensitive to the differences among large                                                                        education and training programs for all
                                                           4 Nothing stated herein should be substituted for,
                                                                                                                affected employees;
  3 The OIG, for example, will consider the              or used in lieu of, competent legal advice from
existence of an effective compliance program that        counsel.                                                  (4) The maintenance of a process,
pre-dated any governmental investigation when              5 Corporate integrity agreements are executed as     such as a hotline, to receive complaints,
addressing the appropriateness of administrative         part of a civil settlement agreement between the       and the adoption of procedures to
penalties. Further, the False Claims Act, 31 U.S.C.      health care provider and the Government to resolve     protect the anonymity of complainants
3729–3733, provides that a person who has violated       a case based on allegations of health care fraud or
the Act, but who voluntarily discloses the violation     abuse. These OIG-imposed programs are in effect
to the Government, in certain circumstances will be      for a period of 3 to 5 years and require many of the     6 See United States Sentencing Commission

subject to not less than double, as opposed to treble,   elements included in this compliance program           Guidelines, Guidelines Manual, 8A1.2 comment.
damages. See 31 U.S.C. 3729(a).                          guidance.                                              (n.3(k)).
                       Federal Register / Vol. 63, No. 163 / Monday, August 24, 1998 / Notices                                       45079

and to protect whistleblowers from           physicians that claims submitted for                  Laboratories can and should advise their
retaliation;                                 services will only be paid if the service             clients that tests submitted for Medicare
   (5) The development of a system to        is covered, reasonable, and necessary for             reimbursement must meet program
respond to allegations of improper/          the beneficiary, given his or her clinical            requirements 8 or the claim may be
illegal activities and the enforcement of    condition. Laboratories should take all               denied.
appropriate disciplinary action against      reasonable steps to ensure that it is not                Laboratories may implement the
employees who have violated internal         submitting claims for services that are               following steps through their
compliance policies, applicable statutes,    not covered, reasonable and necessary.7               compliance programs or some other
regulations or requirements of Federal,      Upon request, a laboratory should be                  appropriate mechanism to ensure that
State or private health plans;               able to produce or obtain from the                    the claims they submit to Federal or
   (6) The use of audits and/or other        treating physician (test ordering),                   private health care programs meet the
evaluation techniques to monitor             authorized person on the physician’s                  appropriate program requirements:
compliance and assist in the reduction       staff or other individual authorized by                  a. Requisition design: While HCFA
of identified problem areas; and             law to order tests the documentation to               does not design or approve requisition
   (7) The investigation and remediation     support the medical necessity of the                  forms, laboratories should construct the
of identified systemic problems and the      service the laboratory has provided and               requisition form to capture the correct
development of policies addressing the       billed to a Federal or private health care            program information as required by
non-employment or retention of               program. We recognize that laboratories               Federal or private health care programs
sanctioned individuals.                      do not and cannot treat patients or make              and to promote the conscious ordering
                                             medical necessity determinations.                     of tests by physicians or other
A. Written Procedures and Policies                                                                 authorized individuals. The laboratory
                                             However, there are steps that such
   Laboratory compliance programs            facilities can take to assure compliance              should construct the requisition form to
should require the development and           with the applicable statutes, regulations             ensure that the physician or other
distribution of written compliance           and the requirements of Federal, State                authorized individual has made an
policies. These policies should be           and private health plans.                             independent medical necessity decision
developed under the supervision and             As a preliminary matter, the OIG                   with regard to each test the laboratory
direction of the chief compliance officer    recognizes that physicians or other                   will bill. Laboratories should encourage
or the equivalent and should, at a           authorized individuals must be able to                physicians or other authorized

minimum, be provided to all                  order any tests that they believe are                 individuals to submit diagnosis

individuals who are affected by the          appropriate for the treatment of their                information for all tests ordered, as

specific policy at issue. One convenient     patients. However, we believe that                    documentation of the medical necessity

method of achieving this goal is to          physicians must be made aware by the                  of the service. The form should contain

create a three-ring compliance policy        billing laboratory that Medicare will                 a statement indicating that Medicare

notebook. This format permits the filing     only pay for tests that meet the                      generally does not cover routine

of new and amended or revised                Medicare coverage criteria and are                    screening tests.

compliance policies and ensures that         reasonable and necessary to treat or                     b. Notices to physicians: While HCFA

affected individuals have easy access to     diagnose an individual patient. Section               does not impose educational

the laboratory’s written policies. A         1862(a)(1)(A) of the Social Security Act              requirements upon the laboratories, labs

master index should show when                states, ‘‘no payment may be made under                are in a unique position to educate their

policies are changed.                        Part A or Part B for any expenses                     physician clients. Therefore,

                                             incurred for items or services which                  laboratories should provide all of their

1. Standards of Conduct                      * * * are not reasonable and necessary                physician clients with annual written
   Laboratories should develop               for the diagnosis or treatment of an                  notices that set forth: (1) The Medicare
standards of conduct for all employees       illness or injury or to improve the                   national policy and Medicare contractor
that clearly delineate the policies of the   functioning of a malformed body                       local medical review policy for lab tests;
laboratory with regard to fraud, waste       member.’’ Therefore, Medicare may                     (2) that organ or disease related panels
and abuse and adherence to all statutes,     deny payment for a test that the                      will only be paid and will only be billed
regulations and other program                physician believes is appropriate, but                when all components are medically
requirements governing Federal, State        which does not meet the Medicare                      necessary; and (3) the Medicare
and private health benefit plans. These      coverage criteria (e.g., done for                     laboratory fee schedule and a statement
standards should be made available to        screening purposes) or where                          informing the physician that the
all employees; translated, interpreted       documentation in the entire patient                   Medicaid reimbursement amount will
(e.g., may be signed for hard of hearing     record, including that maintained in the              be equal to or less than the amount of
or deaf employees) or put into Braille as    physician’s records, does not support                 Medicare reimbursement. The notice
necessary, and regularly updated as the      that the tests were reasonable and                    must also provide the phone number of
policies and regulations are modified.       necessary for a given patient.                        the clinical consultant. The clinical
   When an employee first begins                                                                   consultant is required under the Clinical
working for the clinical laboratory, and       7 In limited instances, HCFA does allow             Laboratory Improvement Amendment
each time new standards of conduct are       laboratories to submit claims when the lab believes   (CLIA) certification (42 CFR 493.1453).
                                             the test may be denied. Such instances include, but
issued, employees should be asked to         are not limited to: when the beneficiary has signed
                                                                                                      In addition to the general notices
sign a statement certifying that they        an Advance Beneficiary Notice (ABN) (See              above, laboratories that continue to offer
have received, read, and understood the      Medicare Carriers Manual § 7300.5) (Part D in this    clients the opportunity to request
                                             section further addresses ABN issues) and when the    customized profiles should provide
standards of conduct. All employee           beneficiary requests the provider submit the claim
certifications should be retained by the     (See Medicare Carriers Manual § 3043). In the first   annual written notices that: (1) Explain
laboratory.                                  instance the lab should include modifier GA on the    the Medicare reimbursement paid for
                                             claim which indicates the beneficiary has signed an   each component of each such profile; (2)
2. Medical Necessity                         ABN and in the latter instance the lab should note
                                                                                                   inform physicians that using a
                                             on the claim their belief that the service is
   Laboratory compliance programs, to        noncovered and that it is being submitted at the
be effective, should communicate to          beneficiary’s insistence.                              8 See   fn. 7.
45080                   Federal Register / Vol. 63, No. 163 / Monday, August 24, 1998 / Notices

customized profile may result in the          can take to determine whether               order in any way either increasing or
ordering of tests which are not covered,      physicians or other individuals             decreasing the number of services
reasonable or necessary and that tests        authorized to order tests are being         performed without the express consent
will not be billed; 9 and (3) inform          encouraged to order medically               of the ordering physician or other
physicians that the OIG takes the             unnecessary tests. More importantly, if     authorized individual. To ensure code
position that an individual who               the laboratory discovers that it has in     accuracy, laboratories should require
knowingly causes a false claim to be          some way contributed to the ordering of     that individuals with technical expertise
submitted may be subject to sanctions or      unnecessary tests, the OIG believes the     in laboratory testing review the
remedies available under civil, criminal      laboratory has a duty to modify its         appropriateness of the codes before the
and administrative law.                       practices, as well as notify the            claims are submitted. Intentional or
   c. Physician acknowledgments:              physician(s) or other authorized            knowing upcoding (i.e., the selection of
Although HCFA does not require                individual(s) of its concerns and           a code to maximize reimbursement
physicians to sign acknowledgments,           recommend corrective action.                when such code is not the most
laboratories should have the physician           There are many methods by which a        appropriate descriptor of the service)
sign an acknowledgment stating he or          laboratory may determine excessive          could violate the False Claims Act and/
she understands the potential                 utilization of laboratory services. One     or other civil laws, and criminal law.
implications of ordering customized           approach to self-monitoring is to hire an     b. Selection of ICD–9–CM codes:
profiles.                                     outside consultant to analyze the           Medicare carriers and fiscal
   d. Use of Advance Beneficiary              laboratory’s patterns of utilization, and   intermediaries have the authority to
Notices: Advance Beneficiary Notices          investigate any potential problems or       develop and implement Local Medical
(ABNs) are used when there is a               aberrancies.                                Review Policy (LMRP) which specify
likelihood that an ordered service will          Another approach is to analyze test      when, and under what circumstances, a
not be paid. Before the service is            utilization data by CPT or HCPCS code,      service will be considered covered,
furnished, the beneficiary should be          for the top 30 tests performed each year.   reasonable and necessary and what
notified, in writing, of the likelihood       Laboratories could do this by keeping       documentation will support the need for
that the specific service will be denied.     track of the number of tests performed      the service. In some cases, LMRPs may
After being so informed the beneficiary       by CPT or HCPCS code or of the number       limit coverage for specified laboratory
has the choice to either (1) decide to        of claims submitted for each test. The      tests to specific medical diagnoses.
receive the service and sign the              laboratories would then compute the         Laboratory compliance policies should
agreement to pay on the ABN or (2)            percentage growth in the number of          ensure that the lab can support tests
decide not to receive the service and         tests or claims submitted for each of the   billed to Medicare with documentation
therefore does not sign the ABN.              top 30 tests from one year to the next.     obtained from the physician ordering
Beneficiaries should not be asked to          We believe that if a test’s utilization     the test, an authorized person on the
sign blank ABNs.                              grows more than 10 percent, the             physician’s staff or other individual
   As the entity furnishing and billing       laboratory should undertake a               authorized by law to order tests.
for services, it is ultimately the            reasonable inquiry to ascertain the cause   Laboratories should not: (1) Use
laboratory’s responsibility to produce        of such growth. If the laboratory           information provided by the physician
the ABN, upon request. In many cases,         determines that the increase in test        or other authorized individual from
it is difficult for the laboratories to       utilization occurred for a benign reason,   earlier dates of service (other than
directly obtain an ABN from the               such as the acquisition of a new            standing orders, as discussed below at
beneficiary. Therefore, laboratories may      laboratory facility, then the laboratory    paragraph 4); (2) create diagnosis
wish to educate physicians on the             need not take any action. However, if       information that has triggered
appropriate use of ABNs.                      the laboratory determines that the          reimbursement in the past; (3) use
   The notice must be in writing, must        increase in utilization was caused by a     computer programs that automatically
clearly identify a particular service,        misunderstanding or ignorance by the        insert diagnosis codes without receipt of
must state that payment for the               ordering physicians or other authorized     diagnostic information from the
particular service likely will be denied      individuals regarding the billing           ordering physician or other authorized
and must give the reason(s) for the belief    consequences of the tests they ordered      individual; or (4) make up information
that payment is likely to be denied.          or an action on the part of the facility,   for claim submission purposes.
   Routine notices to beneficiaries which     the laboratory should take any steps that   Laboratories should: (1) Contact the
do no more than state that denial of          it deems reasonably necessary to            ordering physician, authorized person
payment is possible or that they never        address the issue and to ensure             on the physician’s staff or other
know whether payment will be denied           misconduct is not occurring.                individual authorized to order tests to
are not considered acceptable evidence                                                    obtain information in the event that
of advance notice. Notices should not be      3. Billing                                  such information was not provided; and
given to beneficiaries unless there is           Laboratory compliance policies           (2) accurately translate narrative
some genuine doubt regarding the              should ensure that all claims for testing   diagnoses obtained from the physician
likelihood of payment as evidenced by         services submitted to Medicare or other     or other authorized individual to ICD–
the reasons stated on the ABN. Giving         Federal health care programs correctly      9–CM codes. Where medical
notice for all claims or services is not an   identify the services ordered by the        documentation is obtained from a
acceptable practice.                          physician or other authorized               physician or other authorized
   e. Test utilization monitoring: The        individual and performed by the             individual after receipt of the specimen
OIG believes that laboratories can and        laboratory.                                 and the requisition form, it should be
should take the steps described in this          a. Selection of CPT or HCPCS Codes:      maintained.
compliance guidance to help ensure            Laboratory compliance policies should         c. Tests covered by claims for
appropriate billing of lab tests. We also     ensure that the CPT or HCPCS code that      reimbursement: Only those tests that are
believe that there are steps laboratories     is used to bill, accurately describes the   ordered by an authorized individual or
                                              service that was ordered and performed.     physician, are performed and meet
 9 See   fn. 7.                               Laboratories cannot alter the physician’s   Medicare’s conditions of coverage are
                        Federal Register / Vol. 63, No. 163 / Monday, August 24, 1998 / Notices                                                   45081

reimbursable by Medicare. If a                 are not usually acceptable                             6. Marketing
laboratory receives a specimen without         documentation that tests are reasonable                   Laboratory compliance programs
a valid test order or with a test order        and necessary. Accordingly, the insurer                should require honest, straightforward,
which is ambiguous, the laboratory             may reject standing orders as evidence                 fully informative and non-deceptive
must verify the tests which the                that a test is reasonable and necessary.               marketing. It is in the best interests of
physician wants and perform them               Medicare contractors can and may                       patients, physicians, laboratories, the
before submitting a claim for                  require additional documentation to                    Government and private health plans
reimbursement to Medicare. In this way,        support the medical necessity of the                   that physicians and other individuals
if the physician or other authorized           test. As a result of the potential                     authorized to order tests fully
individual did not order the test, the         problems standing orders may cause,                    understand the services offered by the
laboratory will not erroneously bill for       the use of standing orders is                          laboratory, the services that will be
it.                                            discouraged.                                           provided when tests are ordered, and
    Similarly, if a laboratory did not                                                                the financial consequences for
perform an ordered test due to, for               Thus, while laboratory compliance
                                               programs may permit the use of                         Medicare, as well as other payors, when
example, a laboratory accident or                                                                     tests are billed. Accordingly,
insufficient quantities of specimen, the       standing orders executed in connection
                                               with an extended course of treatment,                  laboratories that market their services
laboratory should not submit a claim to                                                               should ensure that their marketing
Medicare. Medicare payment is made             the compliance program should require
                                               the laboratory to periodically monitor                 information is clear, correct, non-
for tests that are ordered, performed,                                                                deceptive and fully informative.
and covered. The submission of a claim         standing orders. Standing orders should
for tests that were either not ordered or      have a fixed term of validity and must                 7. Prices Charged to Physicians
were not performed could subject a             be renewed at their expiration. We
                                               suggest that, consistent with State law                   Laboratories are paid for their services
provider to sanctions under                                                                           by a variety of payors in addition to
administrative, civil or criminal law.         requirements, a laboratory should
                                                                                                      Medicare and other Federal health care
    d. Billing of calculations: Consistent     contact all nursing homes from which
                                                                                                      programs. Such payors often include
with Medicare coverage rules,                  the laboratory has received such
                                                                                                      private health insurers, other health care
laboratory compliance policies should          standing orders and request that they
                                                                                                      providers, and physicians. We believe it
ensure that the laboratory does not bill       confirm in writing the validity of all
                                                                                                      is essential that the physician take into
both for calculations (e.g., calculated        current standing orders. In addition, in
                                                                                                      account the patient’s best interest when
LDLs, T7s, and indices) and the tests          accordance with State law, laboratories
                                                                                                      deciding where to refer the patient’s
that are performed to derive such              should verify standing orders relied
                                                                                                      specimen.
calculations. In many situations,              upon at draw stations with the
                                                                                                         The prices that laboratories charge
physicians are not offered a choice            physician, authorized person on the
                                                                                                      physicians for certain laboratory
about whether to receive such                  physician’s staff, or other authorized
                                                                                                      services raise issues that should be
calculations, nor are they aware of the        individual who has provided the
                                                                                                      addressed in a laboratory’s written
practice of some laboratories to bill          standing orders to the laboratory. With
                                                                                                      compliance policies. These policies
Medicare for such calculations in              respect to patients with End Stage Renal
                                                                                                      should ensure that laboratories are not
addition to the underlying tests. The          Disease (ESRD), at least once annually
                                                                                                      providing any inducements to gain a
fact that a separate CPT code exists does      laboratories should contact each ESRD
                                                                                                      physician’s business,11 including
not mean that Medicare separately              facility or unit to request confirmation
                                                                                                      charging physicians a price below fair
reimburses for the service assigned to         in writing of the continued validity of
                                                                                                      market value for their non-Federal
the code. Billing both for the                 all existing standing orders.
                                                                                                      health care program tests. Laboratories
calculations and the underlying tests                                                                 that charge physicians a price below fair
                                               5. Compliance With Applicable HHS
constitutes double billing, which may                                                                 market value to induce them to refer
                                               Fraud Alerts
subject a laboratory to sanctions and                                                                 their Federal health care program
other remedies available under civil,             The OIG and HCFA periodically issue                 business may be risking anti-kickback
criminal, and administrative law.              fraud alerts 10 setting forth activities               enforcement and false claims actions.
    e. Reflex testing: Reflex testing occurs   believed to raise legal and enforcement
when initial test results are positive or      issues. Laboratory compliance programs                 8. Retention of Records
outside normal parameters and indicate         should require that any and all fraud                     Compliance programs should ensure
that a second related test is medically        alerts issued by OIG and HCFA are                      that all records required either by
appropriate. In order to avoid                 carefully considered by the legal staff,               Federal or State law or by the
performing unnecessary reflex tests, labs      chief compliance officer, or other                     compliance program are created and
may want to design their requisition           appropriate personnel. Moreover, the                   maintained. Adequate documentation of
form in such a way which would only            compliance programs should require                     compliance efforts are essential in the
allow for the reflex test when necessary.      that a laboratory cease and correct any                event that a laboratory comes under
Therefore, the condition under which           conduct criticized in such a fraud alert,              Government scrutiny.
the reflex test will be performed should       if applicable to laboratories, and take
be clearly indicated on the requisition                                                               9. Compliance as an Element of a
                                               reasonable action to prevent such                      Performance Plan
form. Laboratories may wish to adopt a         conduct from reoccurring in the future.
similar policy for confirmation testing        If appropriate, a laboratory should take                  Clinical laboratories should make the
which may be mandatory.                        the steps described in Section G                       promotion of and adherence to
4. Reliance on Standing Orders                 regarding investigations, reporting and
                                                                                                         11 The OIG has published ‘‘Special Fraud Alert:
                                               correction of identified problems.
   Although standing orders are not                                                                   Arrangements for the Provision of Clinical Lab
prohibited in connection with an                                                                      Services’’ that addresses how the anti-kickback
                                                 10 Both OIG and HCFA fraud alerts can be located     statute relates to arrangements for the provision of
extended course of treatment, too often        on the internet. The OIG web site address is: http:/   clinical lab services. See 59 FR 65377 (December
they have led to abusive practices.            /www.dhhs.gov/progorg/oig. The HCFA web site           19, 1994); OIG’s web site at http://www.dhhs.gov/
Standing orders in and of themselves           address is: http://www.hcfa.gov.                       progorg/oig.
45082                          Federal Register / Vol. 63, No. 163 / Monday, August 24, 1998 / Notices

compliance an element in evaluating the                   sufficient funding and staff to perform                  • Developing policies and programs
performance of managers, supervisors                      his or her responsibilities fully.                     that encourage managers and employees
and all other employees. They, along                      Coordination and communication are                     to report suspected fraud and other
with other employees, should be                           the key functions of the compliance                    improprieties without fear of retaliation.
periodically trained in new compliance                    officer with regard to planning,                         The compliance officer must have the
policies and procedures. In addition, all                 implementing, and monitoring the                       authority to review all documents and
managers and supervisors involved in                      compliance program.                                    other information that are relevant to
the sale, marketing, or billing of                           The compliance officer’s primary                    compliance activities, including, but not
laboratory services, and those who                        responsibilities should include:                       limited to, requisition forms, billing
oversee phlebotomists should (1)                             • Overseeing and monitoring the                     information, claim information, and
discuss with all supervised employees                     implementation of the compliance                       records concerning the marketing efforts
the compliance policies and legal                         program; 13
                                                                                                                 of the clinical laboratory and its
requirements applicable to their                             • Reporting on a regular basis to the
                                                                                                                 arrangements with its clients. This
function; (2) inform all supervised                       clinical laboratory’s governing body,
                                                          CEO and compliance committee on the                    policy enables the compliance officer to
personnel that strict compliance with                                                                            review contracts and obligations
these policies and requirements is a                      progress of implementation, and
                                                          assisting these components in                          (seeking the advice of legal counsel,
condition of employment; and (3)                                                                                 where appropriate) that may contain
disclose to all supervised personnel that                 establishing methods to improve the
                                                          clinical laboratory’s efficiency and                   referral and payment issues that could
the laboratory will take disciplinary                                                                            violate the anti-kickback statute, as well
action up to and including termination                    quality of services, and to reduce the
                                                          clinical laboratory’s vulnerability to                 as the physician self-referral prohibition
for violation of these policies or                                                                               and other legal or regulatory
requirements. In addition to making                       fraud, abuse and waste;
                                                             • Developing and distributing to all                requirements.
performance of these duties an element
                                                          affected employees all written                         2. Compliance Committee
in evaluations, the compliance officer or
                                                          compliance policies and procedures.
laboratory management may also choose                                                                               The OIG recommends that a
                                                          These policies and procedures should
to include in the laboratory’s                                                                                   compliance committee be established to
                                                          be readily understandable by all
compliance program a policy that                                                                                 advise the compliance officer and assist
                                                          employees (e.g., translated into other
managers and supervisors may be                           languages, interpreted in sign language,               in the implementation of the
sanctioned for failure to adequately                      and/or put into Braille as necessary);                 compliance program.14 The committee’s
instruct their subordinates or for failing                   • Periodically revising the program in              functions should include:
to detect non-compliance with                             light of changes in the needs of the                      • Analyzing the organization’s
applicable policies and legal                             organization, and in the law, policies                 regulatory environment, the legal
requirements, where reasonable                            and procedures of Government and                       requirements with which it must
diligence on the part of the manager or                   private payor health plans;                            comply, and specific risk areas;
supervisor would have led to the                             • Developing, coordinating, and
discovery of any problems or violations                                                                             • Assessing existing policies and
                                                          participating in a multifaceted
and given the laboratory the opportunity                                                                         procedures that address these areas for
                                                          educational and training program that
to correct them earlier.                                                                                         possible incorporation into the
                                                          focuses on the elements of the
                                                                                                                 compliance program;
B. Designation of a Compliance Officer                    compliance program, and seeks to
                                                          ensure that all appropriate employees                     • Working within the clinical
and a Compliance Committee                                                                                       laboratory to develop standards of
                                                          and management are knowledgeable of,
1. Compliance Officer                                     and comply with, pertinent Federal,                    conduct and policies and procedures to
                                                          State and private payor standards;                     promote compliance;
   Every clinical laboratory should
designate a compliance officer to serve                      • Ensuring that physicians who order                   • Recommending and monitoring the
as the focal point for compliance                         services from the clinical laboratory are              development of internal systems and
activities. This responsibility may be the                informed of the clinical laboratory’s                  controls to implement the clinical
                                                          compliance program standards with                      laboratory’s standards, policies and
individual’s sole duty or added to other
                                                          respect to coding, billing, and                        procedures as part of its daily
management responsibilities, depending
                                                          marketing, among other things;                         operations;
upon the size and resources of the                           • Assisting the clinical laboratory’s
clinical laboratory and the complexity                                                                              • Determining the appropriate
                                                          financial management in coordinating                   strategy/approach to promote
of the task. Designating a compliance                     internal compliance review and
officer with the appropriate authority is                                                                        compliance with the program and
                                                          monitoring activities, including annual                detection of any potential violations,
critical to the success of the program,                   or periodic reviews of policies;
necessitating the appointment of a high-                                                                         such as through hotlines and other fraud
                                                             • Independently investigating and
level official in the organization with                                                                          reporting mechanisms; and
                                                          acting on matters related to compliance,
direct access to the governing body and                   including the flexibility to design and                   • Developing a system to solicit,
the CEO.12 The officer should have                        coordinate internal investigations (e.g.,              evaluate and respond to complaints and
                                                          responding to reports of problems or                   problems.
   12 The OIG believes that it is not advisable for the
                                                          suspected violations) and any resulting                   The committee may also assume other
compliance function to be subordinate to the
clinical laboratory’s general counsel, or comptroller     corrective action; and                                 functions as the compliance concept
or similar officer. Free standing compliance                                                                     becomes part of the overall clinical
functions help to ensure independent and objective        more effectively achieve the goals of the compliance   laboratory operating structure and daily
legal reviews and financial analyses of the               program.                                               routine.
institution’s compliance efforts and activities. By         13 For clinical laboratory chains, the OIG
separating the compliance function from the key           encourages coordination with each affiliate owned
                                                                                                                   14 The OIG recommends the compliance
management positions of general counsel or chief          by the company through the use of a headquarter’s
financial officer (where the size and structure of the    compliance officer, communicating with the             committee consist of individuals with varying
clinical laboratory make this a feasible option), a       designated compliance officers in each facility, or    perspectives and responsibilities in the
system of checks and balances is established to           regional office, as appropriate.                       organization.
                             Federal Register / Vol. 63, No. 163 / Monday, August 24, 1998 / Notices                                                    45083

C. Conducting Effective Training and                   clinical laboratory’s standards of                     should retain adequate records of its
Education                                              conduct and procedures for alerting                    training of employees, including
   The proper education, training and                  senior management to problems and                      attendance logs and material distributed
retraining of corporate officers,                      concerns. Targeted training should be                  at training sessions.
managers, and all other employees are                  provided to corporate officers, managers
                                                                                                              D. Developing Effective Lines of
significant elements of an effective                   and other employees whose actions
                                                                                                              Communications
compliance program. As part of its                     affect the accuracy of the claims
compliance program, a clinical                         submitted to Government and private                    1. Access to the Compliance Officer
laboratory should require all affected                 payors, such as employees involved in                     An open line of communication
employees to attend specific training                  the coding, billing, and marketing                     between the compliance officer and
when they are first hired and on a                     processes. For example, for certain                    clinical laboratory employees is equally
periodic basis thereafter, including                   employees involved in the billing and                  important to the successful
appropriate training in Federal and                    coding functions, periodic training in                 implementation of a compliance
State statutes, regulations, program                   proper CPT/HCPCs and ICD–9 coding                      program and the reduction of any
requirements, the policies of private                  and documentation should be required.                  potential for fraud, abuse and waste.
payors, and corporate ethics. The                      In addition to specific training in the                Written confidentiality and non-
training should emphasize the                          areas identified in section II.A, above,               retaliation policies should be developed
organization’s commitment to                           basic training for appropriate corporate               and distributed to all employees to
compliance with these legal                            officers, managers and other employees                 encourage communication and the
requirements and policies.                             should include such topics as:                         reporting of incidents of potential
   These training programs should                         • Government and private payor                      misconduct.18 The compliance
include sessions highlighting the                      reimbursement principles;                              committee should also develop several
organization’s compliance program,                        • General prohibitions on paying or                 independent reporting paths for an
summarizing fraud and abuse laws, and                  receiving remuneration to induce                       employee to report fraud, waste or abuse
discussing coding requirements, claim                  referrals;                                             so that such reports cannot be diverted
development and claim submission                          • Proper translation of narrative
                                                                                                              by supervisors or other personnel.
process and marketing practices that                   diagnoses;                                                The OIG encourages the establishment
                                                          • Only billing for services ordered,
reflect current legal and program                                                                             of a procedure so that clinical laboratory
                                                       performed and reported;                                employees may seek clarification from
standards. The clinical laboratory must                   • Physician approved amendments to
take steps to communicate effectively its                                                                     the compliance officer or members of
                                                       requisition forms;
standards and procedures to all affected                  • Proper documentation or                           the compliance committee in the event
employees ( e.g., by requiring                         confirmation of services rendered; and                 of any confusion or question with regard
participation in training programs and                    • Duty to report misconduct.                        to a laboratory policy or procedure.
disseminating publications that explain                   Clarifying and emphasizing these                    Questions and responses should be
in a practical manner specific                         areas of concern through training and                  documented and dated and, if
requirements).15 Managers of specific                  educational programs are particularly                  appropriate, shared with other staff so
departments can assist in identifying                  relevant to a clinical laboratory’s                    that standards, policies and procedures
areas that require training and in                     marketing representatives, in that the                 can be updated and improved to reflect
carrying out such training. Training                   pressure to meet business goals may                    any necessary changes or clarifications.
instructors may come from outside or                   render these employees vulnerable to                   The compliance officer may want to
inside the organization. New employees                 engaging in prohibited practices.                      solicit employee input in developing
should be targeted for training early in                  The OIG suggests that all affected                  these communication and reporting
their employment.16 The compliance                     employees be made part of the clinical                 systems.
officer should document the attendees,                 laboratory’s various educational and                   2. Hotlines and Other Forms of
the subjects covered, and the material                 training programs. Employees should be                 Communication
distributed at the training sessions                   required to have a minimum number of
sponsored by the clinical laboratory as                                                                          The OIG encourages the use of
                                                       educational hours per year, as
part of the compliance program.                                                                               hotlines (including anonymous
                                                       appropriate, as part of their employment
   A variety of teaching methods, such                                                                        hotlines), e-mails, written memoranda,
                                                       responsibilities.17 In departments with
as interactive training, and training in                                                                      newsletters, and other forms of
                                                       high employee turnover, periodic
several different languages, particularly                                                                     information exchange to maintain these
                                                       training updates are critical.                         open lines of communication. If the
where a clinical laboratory has a                         The OIG recommends that attendance
culturally diverse staff, should be                                                                           clinical laboratory establishes a hotline,
                                                       and participation in training programs
implemented so that all affected                                                                              the telephone number should be made
                                                       be made a condition of continued
employees are knowledgeable of the                                                                            readily available to all employees
                                                       employment and that failure to comply
                                                                                                              possibly by conspicuously posting the
                                                       with training requirements should result
  15 Some publications, such as the OIG’s Special                                                             telephone number in common work
                                                       in disciplinary action, including
Fraud Alerts, audit and inspection reports, and                                                               areas.19 Employees should be permitted
advisory opinions are readily available from the
                                                       possible termination, when such failure
OIG and could be the basis for standards and           is serious. Adherence to the provisions                   18 The OIG believes that whistleblowers should be
educational courses for appropriate clinical           of the compliance program, such as                     protected against retaliation, a concept embodied in
laboratory employees. These documents can be           training requirements, should be a factor              the provisions of the False Claims Act. In many
found on the OIG’s web site at http://                                                                        cases, employees sue their employers under the
www.dhhs.gov/progorg/oig.
                                                       in the annual evaluation of each
                                                                                                              False Claims Act’s qui tam provisions out of
  16 Certain positions, such as those involving the    employee. The clinical laboratory                      frustration because of the company’s failure to take
coding of medical services, create a greater                                                                  action when a questionable, fraudulent or abusive
organizational legal exposure, and therefore require     17 In its corporate integrity agreements, the OIG    situation was brought to the attention of senior
specialized training. One recommendation would         usually requires a minimum number of hours             corporate officials.
be for a clinical laboratory to attempt to fill such   annually for basic training in compliance areas.          19 Clinical laboratories should also post in a

positions with individuals who have the                More hours are required for specialty fields such as   prominent, available area the HHS–OIG Hotline
appropriate educational background and training.       billing and coding.                                                                               Continued
45084                      Federal Register / Vol. 63, No. 163 / Monday, August 24, 1998 / Notices

to report matters on an anonymous                could range from oral warnings to                       conviction, as defined by 42 U.S.C.
basis. Matters reported through the              suspension or termination. The written                  1320a–7(i), or exclusion action.
hotline or other communication sources           standards of conduct should elaborate                   Pursuant to the compliance program,
that suggest substantial violations of           on the procedures for handling                          clinical laboratory policies should
compliance policies, regulations,                disciplinary problems and those who                     prohibit the employment of individuals
statutes or program requirements of              will be responsible for taking                          who have been recently convicted of a
Federal, State and private insurers              appropriate action. Some disciplinary                   criminal offense related to health care or
should be documented and investigated            actions can be handled by department                    who are listed as debarred, excluded or
promptly to determine their veracity. A          managers, while others may have to be                   otherwise ineligible for participation in
log should be maintained by the                  resolved by a senior manager.                           Federal health care programs (as defined
compliance officer that records such             Disciplinary action may be appropriate                  in 42 U.S.C. 1320a–7b(f)).21 In addition,
calls, including the nature of any               where a responsible employee’s failure                  pending the resolution of any criminal
investigation and its results. Such              to detect a violation is attributable to his            charges or proposed debarment or
information should be included in                or her negligence or reckless conduct.                  exclusion, the OIG recommends that
reports to the governing body, the CEO           Employees should be advised by the                      such individuals should be removed
and compliance committee. Further,               clinical laboratory that disciplinary                   from direct responsibility for or
while the clinical laboratory should             action will be taken on a fair and                      involvement in any Federal health care
always strive to maintain the                    equitable basis. Managers and                           program.22 With regard to current
confidentiality of an employee’s                 supervisors should be made aware that                   employees, physicians or other
identity, it should also explicitly              they have a responsibility to discipline                individuals authorized to order tests, if
communicate that there may be a point            employees in an appropriate and                         resolution of the matter results in
where the individual’s identity may              consistent manner.                                      conviction, debarment or exclusion, the
become known or may have to be                      It is vital to publish and disseminate               clinical laboratory should terminate its
revealed in certain instances when               the range of disciplinary standards for                 employment or other contract
governmental authorities become                  improper conduct and to educate                         arrangement with the individual or
involved.                                        corporate officers, managers and other                  physician.
   The OIG recognizes that assertions of         employees regarding these standards.
fraud and abuse by employees who may             The consequences of noncompliance                       F. Auditing and Monitoring
have participated in illegal conduct or          should be consistently applied and                         An ongoing evaluation process
committed other malfeasance raise                enforced, in order for the disciplinary                 involving thorough monitoring and
numerous complex legal and                       policy to have the required deterrent                   regular reporting to the clinical
management issues that should be                 effect. All levels of employees should be               laboratory’s corporate officers is critical
examined on a case-by-case basis. The            subject to the same disciplinary action                 to a successful compliance program.
compliance officer should work closely           for the commission of similar offenses.                 Compliance reports created by this
with legal counsel, who can provide              The commitment to compliance applies                    ongoing monitoring, including reports
guidance regarding such issues.                  to all personnel levels within a clinical               of suspected noncompliance, should be
                                                 laboratory. The OIG believes that                       maintained by the compliance officer
E. Enforcing Standards Through Well-                                                                     and shared with the clinical laboratory’s
                                                 corporate officers, managers, and other
Publicized Disciplinary Guidelines                                                                       corporate officers and the compliance
                                                 employees should be held accountable
1. Discipline Policy and Actions                 for failing to comply with, or for the                  committee.
                                                 foreseeable failure of their subordinates                  Although many monitoring
   An effective compliance program
                                                 to adhere to, the applicable standards,                 techniques are available, one effective
should include guidance regarding
                                                 laws, and procedures.                                   tool to promote and ensure compliance
disciplinary action for corporate
                                                                                                         is the performance of regular
officers, managers, and other employees          2. New Employee Policy                                  compliance audits by internal or
who have failed to comply with the
                                                    For all new employees who have                       external auditors who have expertise in
clinical laboratory’s standards of
                                                 discretionary authority to make                         Federal and State health care statutes,
conduct, policies and procedures, or
                                                 decisions that may involve compliance                   regulations and the program
Federal and State laws, or those who
                                                 with the law or compliance oversight,                   requirements of Federal, State and
have otherwise engaged in wrongdoing,
                                                 clinical laboratories should conduct a                  private insurers. At a minimum, these
which have the potential to impair the
                                                 reasonable and prudent background                       audits should be designed to address the
clinical laboratory’s status as a reliable,
                                                 investigation, including a reference                    clinical laboratory’s compliance with
honest and trustworthy health care
                                                 check, as part of every such                            laws governing kickback arrangements,
provider.
   The OIG believes that the compliance          employment application.20 The                           the physician self-referral prohibition,
program should include a written policy          application should specifically require                 CPT/HCPCS coding and billing, ICD–9
statement setting forth the degrees of           the applicant to disclose any criminal                  coding, claim development and
disciplinary actions that may be                                                                         submission, reimbursement, marketing,
                                                   20 The Cumulative Sanction Report is an OIG-
imposed upon corporate officers,                                                                         reporting and record keeping. In
                                                 produced report available on the Internet at http:/
managers, and other employees for                /www.dhhs.gov/progorg/oig. It is updated on a
                                                                                                           21 Likewise, clinical laboratory compliance
failing to comply with the clinical              regular basis to reflect the status of health care
                                                 providers who have been excluded from                   programs should establish standards prohibiting the
laboratory’s standards and policies and          participation in the Medicare and Medicaid              execution of contracts with physicians or other
applicable statutes and regulations.             programs. In addition, the General Services             individual authorized to order tests that have been
Intentional or reckless noncompliance            Administration maintains a monthly listing of           recently convicted of a criminal offense related to
                                                 debarred contractors on the Internet at http://         health care or that are listed by a Federal agency
should subject transgressors to                                                                          as debarred, excluded, or otherwise ineligible for
                                                 www.arnet.gov/epls. Also, once the data base
significant sanctions. Such sanctions            established by the Health Care Fraud and Abuse          participation in Federal health care programs.
                                                 Data Collection Act of 1996 is fully operational, the     22 Prospective employees who have been officially

telephone number, 1–800–HHS–TIPS (447–8477),     hospital should regularly request information from      reinstated into the Medicare and Medicaid
in addition to any company hotline number that   this data bank as part of its employee screening        programs by the OIG may be considered for
may be posted.                                   process.                                                employment upon proof of such reinstatement.
                              Federal Register / Vol. 63, No. 163 / Monday, August 24, 1998 / Notices                                             45085

addition, the audits and reviews should                 overpayment and; (5) the amount of the           With these reports, the clinical
inquire into the clinical laboratory’s                  overpayment.                                  laboratory management can take
compliance with specific rules and                        The OIG believes that the compliance        whatever steps are necessary to correct
policies that have been the focus of                    officer needs to be made aware of these       past problems and prevent them from
particular attention on the part of the                 overpayment patterns, violations or           recurring. In certain cases, subsequent
Medicare fiscal intermediaries or                       deviations and look for trends that may       reviews or studies would be advisable to
carriers, and law enforcement, as                       demonstrate a systemic problem.               ensure that the recommended corrective
evidenced by OIG Special Fraud Alerts,                    An effective compliance program             actions have been implemented
OIG audits and evaluations, and                         should also incorporate periodic (at          successfully.
publically announced law enforcement                    least annual) reviews of whether the             The clinical laboratory should
initiatives and also should focus on any                program’s compliance elements have            document its efforts to comply with
areas of concern that have been                         been satisfied, e.g., whether there has       applicable statutes, regulations and the
identified by any entity, (i.e., Federal,               been appropriate; (1) dissemination of        program requirements of Federal, State
State, or internally) specific to the                   the program’s standards; (2) training; (3)    and private payors. For example, where
individual clinical laboratory.                         ongoing educational programs; and (4)         a clinical laboratory, in its efforts to
   Monitoring techniques may include                    disciplinary actions, among others. This      comply with a particular statute,
sampling protocols that permit the                      process will verify actual conformance        regulation or program requirement,
compliance officer to identify and                      with the compliance program. The              requests advice from a Government
review variations from an established                   review also should look into whether          agency (including a Medicare fiscal
baseline.23 Significant variations from                 appropriate records have been created         intermediary or carrier) charged with
the baseline should trigger a reasonable                and maintained to document the                administering a Federal health care
inquiry to determine the cause of the                   implementation of an effective program.       program, the clinical laboratory should
deviation. If the inquiry determines that               However, when monitoring discloses            document and retain a record of the
                                                        that deviations were not detected in a        request and any written or oral
the deviation occurred for legitimate,
                                                        timely manner due to program                  response. This step is particularly
explainable reasons, the compliance
                                                        deficiencies, appropriate modifications       important if the clinical laboratory
officer, corporate officer or manager may
                                                        must be implemented. Such                     intends to rely on that response. The
want to limit any corrective action or
                                                        evaluations, when developed with the          laboratory should memorialize its
take no action. If it is determined that
                                                        support of management, can help ensure        determination as to whether reliance on
the deviation was caused by improper
                                                        compliance with the clinical                  any such advice is reasonable, and its
procedures, misunderstanding of rules,
                                                        laboratory’s policies and procedures.         efforts to develop procedures based
including fraud and systemic problems,
                                                          As part of the review process, the          upon such advice.
the clinical laboratory should take
prompt steps to correct the problem. If                 compliance officer or reviewers should        G. Responding to Detected Offenses and
potential fraud or violations of the False              consider techniques such as:                  Developing Corrective Action Initiatives
Claims Act are involved, the laboratory                   • On-site visits;
                                                                                                      1. Violations and Investigations
should report the potential violation to                  • Interviews with personnel involved
the OIG or the Department of Justice                    in management, marketing/sales,                  Violations of a clinical laboratory’s
(see discussion in Section G.2, below).                 operations, coding/billing, claim             compliance program, failures to comply
Any repayment of an overpayment                         development and submission, and other         with applicable Federal or State law,
which results from such a violation                     related activities;                           and other requirements of Government
should be made as part of the discussion                  • Questionnaires developed to solicit       and private health plans, and other
with law enforcement.                                   impressions of a broad cross-section of       types of misconduct threaten a clinical
   When making any overpayment, the                     the clinical laboratory’s employees and       laboratory’s status as a reliable, honest
clinical laboratory should inform the                   referring clients;                            and trustworthy provider capable of
payor of the following information (1)                    • Review of requisition forms and           participating in Federal health care
the refund is being made pursuant to a                  other documents that support claims for       programs. Detected but uncorrected
voluntary compliance program; (2) a                     reimbursement;                                misconduct can seriously endanger the
description of the complete                               • Review of written materials and           mission, reputation, and legal status of
circumstances surrounding the                           documentation produced by the                 the clinical laboratory. Consequently,
overpayment; (3) the methodology by                     laboratory and used by physicians and         upon reports or reasonable indications
which the overpayment was                               other individuals authorized to order         of suspected noncompliance, it is
determined; (4) any claim-specific                      tests; and                                    important that the chief compliance
information used to determine the                         • Trend analyses, or longitudinal           officer or other management officials
                                                        studies, that seek deviations in billing or   initiate prompt steps to investigate the
   23 The OIG recommends that when a compliance         ordering patterns over a given period.        conduct in question to determine
program is established in a clinical laboratory, the      The reviewers should:                       whether a material violation of
compliance officer, with the assistance of corporate      • Be independent of line                    applicable law or the requirements of
officers, should take a ‘‘snapshot’’ of their
                                                        management;                                   the compliance program has occurred,
operations from a compliance perspective. This                                                        and if so, take steps to correct the
assessment can be undertaken by outside                   • Have access to existing audit
consultants, law or accounting firms, or internal       resources, relevant personnel and all         problem.24 As appropriate, such steps
staff, with authoritative knowledge of health care      relevant areas of operation;
compliance requirements. This ‘‘snapshot,’’ often                                                       24 Instances of non-compliance must be

used as part of benchmarking analyses, becomes a
                                                          • Present written evaluative reports        determined on a case-by-case basis. The existence,
baseline for the compliance officer and other           on compliance activities to the CEO,          or amount, of a monetary loss to a health care
corporate officers to judge the clinical laboratory’s   governing body and members of the             program is not solely determinative of whether or
progress in reducing or eliminating potential areas     compliance committee on a regular             not the conduct should be investigated and reported
of vulnerability. For example, it has been suggested                                                  to governmental authorities. In fact, there may be
that a baseline level include the frequency and
                                                        basis, but no less than annually; and         instances where there is no monetary loss at all, but
percentile levels of each CPT code in relation to the     • Specifically identify areas where         corrective action and reporting are still necessary to
clinical laboratory’s overall billing.                  corrective actions are needed.                                                            Continued
45086                         Federal Register / Vol. 63, No. 163 / Monday, August 24, 1998 / Notices

may include an immediate referral to                    appropriate steps to secure or prevent                  under advice of counsel, and with
criminal and/or civil law enforcement                   the destruction of documents or other                   guidance from the governmental
authorities, a corrective action plan,25 a              evidence relevant to the investigation. If              authorities, could be requested to
report to the Government,26 and the                     the clinical laboratory determines that                 continue to investigate the reported
submission of any overpayments, if                      disciplinary action is warranted, it                    violation. Once the investigation is
applicable.                                             should be prompt and imposed in                         completed, the compliance officer
   Depending upon the nature of the                     accordance with the clinical laboratory’s               should be required to notify the
alleged violations, an internal                         written standards of disciplinary action.               appropriate governmental authority of
investigation will probably include                                                                             the outcome of the investigation,
                                                        2. Reporting
interviews and a review of relevant                                                                             including a description of the impact of
documents. Some clinical laboratories                      If the compliance officer, compliance                the alleged violation on the operation of
should consider engaging outside                        committee or management official                        the applicable health care programs or
counsel, auditors, or health care experts               discovers credible evidence of                          their beneficiaries. If the investigation
to assist in an investigation. Records of               misconduct from any source and, after                   ultimately indicates that criminal or
the investigation should contain                        a reasonable inquiry, has reason to                     civil violations may have occurred, the
documentation of the alleged violation,                 believe that the misconduct may violate                 appropriate Federal and State officials 31
a description of the investigative                      criminal, civil or administrative law,                  should be notified immediately.
process, copies of interview notes and                  then the clinical laboratory promptly                      As previously stated, the clinical
key documents, a log of the witnesses                   should report the matter to the                         laboratory should take appropriate
interviewed and the documents                           appropriate governmental authority 27                   corrective action, including the
reviewed, the results of the                            within a reasonable period, but not                     imposition of proper disciplinary
investigation, e.g., any disciplinary                   more than 60 days 28 after determining                  action, and prompt identification and
action taken, and the corrective action                 that there is credible evidence of a                    restitution of any overpayment to the
implemented. While any action taken as                  violation.29 Prompt reporting will                      affected payor. In cases where potential
the result of an investigation will                     demonstrate the clinical laboratory’s                   fraud or violations of the False Claims
necessarily vary depending upon the                     good faith and willingness to work with                 Act are involved payment should be
clinical laboratory and the situation,                  governmental authorities to correct and                 made as part of discussions with law
clinical laboratories should strive for                 remedy the problem. In addition,                        enforcement. Failure to repay
some consistency by utilizing sound                     reporting such conduct will be                          overpayments within a reasonable
practices and disciplinary protocols.                   considered a mitigating factor by the                   period of time could be interpreted as
Further, after a reasonable period, the                 OIG in determining administrative                       an intentional attempt to conceal the
compliance officer should review the                    sanctions (e.g., penalties, assessments,                overpayment from the Government,
circumstances that formed the basis for                 and exclusion), if the reporting provider               thereby establishing an independent
the investigation to determine whether                  becomes the target of an OIG                            basis for a criminal violation with
similar problems have since been                        investigation.30                                        respect to the clinical laboratory, as well
                                                           When reporting misconduct to the
uncovered.                                                                                                      as any individuals who may have been
   If an investigation of an alleged                    Government, a clinical laboratory
                                                                                                                involved.32 For this reason, clinical
                                                        should provide all evidence relevant to
violation is undertaken and the                                                                                 laboratory compliance programs should
                                                        the potential violation of applicable
compliance officer believes the integrity                                                                       emphasize that overpayments obtained
                                                        Federal or State law(s) and potential
of the investigation may be at stake                                                                            from Medicare or other Federal health
                                                        cost impact. The compliance officer,
because of the presence of employees                                                                            care programs should be promptly
under investigation, those subjects                       27 I.e., Federal and/or State law enforcement         returned to the payor that made the
should be removed from their current                    having jurisdiction over such matter. Such              erroneous payment. Section F details
work activity until the investigation is                governmental authority would include DOJ and OIG        the information which should be
completed (unless otherwise requested                   with respect to Medicare and Medicaid violations        provided to the contractor when making
                                                        giving rise to causes of actions under various
by law enforcement). In addition, the                   criminal, civil and administrative false claims
                                                                                                                a repayment.
compliance officer should take                          statutes.
                                                          28 To qualify for the ‘‘not less than double
                                                                                                                Conclusion
protect the integrity of the applicable program and     damages’’ provision of the False Claims Act, the           Through this document, the OIG has
its beneficiaries.                                      report must be provided to the Government within        attempted to provide a foundation for
   25 Advice from the clinical laboratory’s in-house    thirty days after the date when the laboratory first
                                                        obtained the information. 31 U.S.C. 3729(a).
                                                                                                                development of an effective and cost-
counsel or an outside law firm may be sought to
determine the extent of the clinical laboratory’s         29 The OIG believes that some violations may be       efficient clinical laboratory compliance
liability and to plan the appropriate course of         so serious that they warrant immediate notification     program. As previously stated, however,
action.                                                 to governmental authorities, prior to, or               each program must be tailored to fit the
   26 The OIG currently maintains a voluntary           simultaneous with, commencing an internal               needs and resources of an individual
disclosure program that encourages providers to         investigation, e.g., if the conduct (1) is a clear
report suspected fraud. The concept of voluntary        violation of criminal law; (2) has a significant        clinical laboratory, depending upon its
self-disclosure is premised on a recognition that the   adverse effect on the quality of care provided to
Government alone cannot protect the integrity of        program beneficiaries (in addition to any other legal      31 Appropriate Federal and State authorities

the Medicare and other Federal health care              obligations regarding quality of care); or (3)          include the Criminal and Civil Divisions of the
programs. Health care providers must be willing to      indicates evidence of a systemic failure to comply      Department of Justice, the U.S. Attorney in the
police themselves, correct underlying problems and      with applicable laws, an existing corporate integrity   clinical laboratory’s district, and the investigative
work with the Government to resolve these matters.      agreement, or other standards of conduct, regardless    arms for the agencies administering the affected
The OIG’s voluntary self-disclosure program has         of the financial impact on Federal health care          Federal or State health care programs, such as the
four prerequisites (1) the disclosure must be on        programs.                                               State Medicaid Fraud Control Unit, the Defense
behalf of an entity and not an individual; (2) the        30 The OIG has published criteria setting forth       Criminal Investigative Service, and the Offices of
disclosure must be truly voluntary (i.e., no pending    those factors that the OIG takes into consideration     Inspector General of the Department of Health and
proceeding or investigation); (3) the entity must       in determining whether it is appropriate to exclude     Human Services, the Department of Veterans Affairs
disclose the nature of the wrongdoing and the harm      a health care provider from program participation       and the Office of Personnel Management (which
to the Federal programs; and (4) the entity must not    pursuant to 42 U.S.C. 1320a–7(b)(7) for violations      administers the Federal Employee Health Benefits
be the subject of a bankruptcy proceeding before or     of various fraud and abuse laws. See 62 FR 67392        Program).
after the self-disclosure.                              (12/24/97).                                                32 See 42 U.S.C. 1320a–7b(a)(3).
                         Federal Register / Vol. 63, No. 163 / Monday, August 24, 1998 / Notices                         45087

particular corporate structure, mission,     name and telephone number is listed         hazard control in low income private
size and employee composition. The           below.                                      housing.
statutes, regulations and guidelines of        Committee Name: CMHS National                The 1997 awards announced in this
the Federal and State health insurance       Advisory Council.                           Notice were selected for funding in a
programs, as well as the policies and          Meeting date: August 24, 1998.            competition announced in a Federal
procedures of the private health plans,        Place: CMHS Conference Room 5600          Register notice published on June 6,
should be integrated into every clinical     Fishers Lane, Room 15–94, Rockville,        1997 (62 FR 30380). Applications were
laboratory’s compliance program.             MD 20857.                                   scored and selected on the basis of
   The OIG recognizes that the health          Closed: August 24, 1998, 12:00 p.m.–      selection criteria contained in that
care industry in this country, which         1:30 p.m.                                   Notice.
reaches millions of beneficiaries and          Contact: Anne Mathews-Younes,
                                             Ed.D., Executive Secretary, Room 18C–          A total of $50,000,000 has been
expends about a trillion dollars                                                         awarded to twenty-five grantees. In
annually, is constantly evolving. As         05, Parklawn Building, Telephone: (301)
                                             443–0554 and FAX (301) 443–7912.            accordance with section 102(a)(4)(C) of
stated throughout this guidance,                                                         the Department of Housing and Urban
compliance is a dynamic process that           This notice is being published less
                                             than 15 days prior to the meeting due       Development Reform Act of 1989 (103
helps to ensure that clinical laboratories                                               Stat. 1987, 42 U.S.C. 3545), Department
and other health care providers are          to the urgent need to meet timing
                                             limitations imposed by the review and       is publishing the names, addresses, and
better able to fulfill their commitment to                                               amounts of those awards as follows.
ethical behavior, as well as meet the        funding cycle.
changes and challenges being imposed           Dated: August 18, 1998.                   Category A Grants
upon them by Congress and private            Dee Herman,                                 City of Phoenix
insurers. Ultimately, it is OIG’s hope       Committee Management Officer, Substance
that a voluntarily created compliance        Abuse and Mental Health Services            Lead Hazard Control Program, 200 West
program will enable clinical laboratories    Administration.                               Washington, Phoenix, AZ 85003,
to meet their goals, improve the quality     [FR Doc. 98–22573 Filed 8–21–98; 8:45 am]     $2,000,000
of services and control of claims            BILLING CODE 4162–20–P                      City of Long Beach
submission, and substantially reduce
fraud, waste and abuse, as well as the                                                   Department of Health & Human
cost of health care to Federal, State and    DEPARTMENT OF HOUSING AND                     Services, 2525 Grand Avenue, Long
private health insurers.                     URBAN DEVELOPMENT                             Beach, CA 90815–1765, $2,000,000
  Dated: August 14, 1998.                                                                City of Los Angeles
                                             [Docket No. FR–4211–FA–03]
June Gibbs Brown,
Inspector General.
                                                                                         Los Angeles Housing Department, 400
                                             Lead-Based Paint Hazard Control in            Main St., Los Angeles, CA 90013,
[FR Doc. 98–22559 Filed 8–21–98; 8:45 am]    Privately Owned Housing: Fiscal Year          $2,900,000
BILLING CODE 4150–04–P                       1997: Announcement of Funding
                                             Awards                                      City of Richmond

DEPARTMENT OF HEALTH AND                     AGENCY: Office of the Secretary—Office      Richmond Redevelopment Agency, 330
HUMAN SERVICES                               of Lead Hazard Control.                       25th St., Richmond, CA 94804,
                                             ACTION: Announcement of funding               $2,300,000
Substance Abuse and Mental Health            awards.                                     Town of Manchester
Services Administration
                                             SUMMARY:   In accordance with section       Manchester Lead Abatement Project, 63
Center for Mental Health Services;           102(a)(4)(C) of the Department of            East Center St., Suite 2A, Manchester,
Notice of Meeting                            Housing and Urban Development                CT 06040, $2,000,000
                                             Reform Act of 1989, this announcement
  Pursuant to Pub. L. 92–463, notice is                                                  District of Columbia
                                             notifies the public of funding decisions
hereby given of a teleconference
                                             made by the Department in a                 Department of Health, 800 9th St., SW.,
meeting of the Center for Mental Health
                                             competition for funding under the             Washington, DC 20024, $2,200,000
Services (CMHS) National Advisory
                                             NOFA for Lead-Based Paint Hazard
Council on August 24, 1998.                                                              City of Lawrence
                                             Control in Privately Owned Housing.
  The meeting will include the review,
                                             This announcement contains the names        Community Development Department,
discussion, and evaluation of individual
                                             and addresses of the award recipients         225 Essex St., Lawrence, MA 01840,
grant applications and contract
                                             and the amounts of awards.                    $2,900,000
proposals. Therefore, the meeting will
be closed to the public as determined by     FOR FURTHER INFORMATION CONTACT: Ellis
                                                                                         City of Springfield
the Administrator, SAMHSA, in                G. Goldman, Department of Housing
accordance with Title 5 U.S.C. 552b(c)       and Urban Development, 451 Seventh          Office of Housing, 81 State Street,
(3), (4) and (6) and 5 U.S.C. App. 2,        Street, SW, Washington, DC 20410,             Springfield, MA 01103, $1,800,000
Section 10(d).                               telephone (202) 755–1785, ext 112.
                                             Hearing-and speech-impaired persons         City of Baltimore
  An agenda and a roster of Council
members may be obtained from Ms.             may access the number above via TTY         Baltimore City Health Department, 210
Patricia Gratton, Committee                  by calling the toll free Federal              Guilford Ave., Baltimore, MD 21044,
Management Officer, CMHS, Room               Information Relay Service at 1–800–           $2,000,000
11C–26, Parklawn Building, Rockville,        877–8339.
                                                                                         City of Portland
Maryland 20857, Telephone (301) 443–         SUPPLEMENTARY INFORMATION: The
7987.                                        purpose of the competition was to           Portland Lead-Safe Housing Program,
  Substantive program information may        award grant funding for $50,000,000 for       389 Congress St., Portland, ME 04101,
be obtained from the contact whose           the grant program for lead-based paint        $1,400,000
